CERTIFICATE OF SERVICE

I, Petitioner, Matthew Lee Staszak, Certify that a true and correct copy of the
foregoing Petition For A Writ of Certiorari, and Appendices A-I through A-24 was
mailed Priority USPS mail with USPS Tracking # 70180360000125285488 on this 10th
day of February 2021, affixed and addressed to:

Supreme Court of the United States
Clerk of the Court
1 First Street, N.E.,
Washington, D.C. 20543-0001
"LEGAL MAIL"

W L. STASZAK
MAT
Reg #24227-171
Federal Correction Complex
P.O. Box 9000-LOW
Forrest City, AR 72336-9000

